                                              40114                            Federal Register / Vol. 79, No. 133 / Friday, July 11, 2014 / Notices

                                              ACTION: Notice of public meeting;                        methods, the role of NARMS in                         athttp://www.regulations.gov no later
                                              request for comments.                                    foodborne outbreaks, results of                       than 2 weeks prior to the meeting.
                                                                                                       interagency research projects using                      Transcripts: FDA will prepare a
                                              SUMMARY:    The Food and Drug                            advanced detection methods, and how                   meeting transcript and make it available
                                              Administration (FDA) is announcing a                     these scientific advances impact FDA                  on the Agency’s Web site (see Agenda)
                                              public meeting entitled ‘‘2014 Scientific                decisionmaking.                                       after the meeting. FDA anticipates that
                                              Meeting of the National Antimicrobial                       Registration and Requests for Oral                 transcripts will be available
                                              Resistance Monitoring System.’’ The                                                                            approximately 60 business days after
                                                                                                       Presentations: Interested persons may
                                              purpose of the meeting is to discuss                                                                           the meeting. The transcript will be
                                                                                                       make oral presentations on the topic of
                                              progress made in achieving the goals of
                                                                                                       the discussion of the meeting. Oral                   available for public examination at the
                                              the National Antimicrobial Resistance
                                                                                                       presentations from the public during the              Division of Dockets Management (HFA–
                                              Monitoring System (NARMS) Strategic
                                                                                                       open public comment period will be                    305), Food and Drug Administration,
                                              Plan: 2012–2016.
                                                 Dates And Time: The public meeting                    scheduled between approximately 3:50                  5630 Fishers Lane, rm. 1061, Rockville,
                                              will be held on August 12 and 13, 2014,                  p.m. and 4:50 p.m. on August 13, 2014.                MD 20852, between 9 a.m. and 4 p.m.,
                                              from 8 a.m. to 5 p.m.                                    Those desiring to make oral                           Monday through Friday. A transcript
                                                                                                       presentations should notify the contact               will also be available in either hardcopy
                                              ADDRESSES: Location: The public
                                                                                                       person by July 29, 2014, and submit a                 or on CD–ROM after submission of a
                                              meeting will be held at the FDA White
                                                                                                       brief statement of the general nature of              Freedom of Information request. Written
                                              Oak Campus, 10903 New Hampshire
                                                                                                       information they wish to present. In an               requests are to be sent to Division of
                                              Ave., Building 31, Great Room (rm.
                                                                                                       effort to accommodate all who desire to               Freedom of Information (ELEM–1029),
                                              1503A), Silver Spring, MD 20993–0002.
                                                                                                       speak, time allotted for each                         Food and Drug Administration, 12420
                                              Please note that visitors to the White
                                                                                                       presentation may be limited. The                      Parklawn Dr., Element Bldg., Rockville,
                                              Oak Campus must enter through
                                                                                                       contact person will inform each speaker               MD 20857.
                                              Building 1. The White Oak Campus
                                                                                                       of their schedule prior to the meeting.                 Dated: July 7, 2014.
                                              location is a Federal facility with
                                                                                                          Registration is required for the                   Leslie Kux,
                                              security procedures. For parking and
                                                                                                       meeting. Please send registration
                                              security information, please refer to                                                                          Assistant Commissioner for Policy.
                                                                                                       information (including name, title,
                                              http://www.fda.gov/AboutFDA/Working                                                                            [FR Doc. 2014–16207 Filed 7–10–14; 8:45 am]
                                                                                                       organization, address, and telephone
                                              atFDA/BuildingsandFacilities/White                                                                             BILLING CODE 4164–01–P
                                                                                                       and fax numbers) by email to Laura
                                              OakCampusInformation/
                                                                                                       Bradbard (see FOR FURTHER INFORMATION
                                              ucm241740.htm.
                                                                                                       CONTACT) by July 29, 2014. There is no
                                              FOR FURTHER INFORMATION CONTACT:                                                                               DEPARTMENT OF HEALTH AND
                                                                                                       fee to register for the public meeting,
                                              Laura Bradbard, Center for Veterinary                                                                          HUMAN SERVICES
                                                                                                       and registration will be on a first-come,
                                              Medicine (HFV–12), Food and Drug                         first-served basis.                                   Office of Inspector General
                                              Administration, 7519 Standish Pl.,                          If you need special accommodations
                                              Rockville, MD 20855, 240–276–9109,                       due to a disability, please contact Laura             Solicitation of Information and
                                              FAX: 240–276–9115, laura.bradbard@                       Bradbard (see FOR FURTHER INFORMATION                 Recommendations for Revising OIG’s
                                              fda.hhs.gov.                                             CONTACT) at least 7 days in advance.                  Non-Binding Criteria for Implementing
                                              SUPPLEMENTARY INFORMATION: NARMS                            Comments: Regardless of attendance                 Permissive Exclusion Authority Under
                                              periodically conducts public meetings                    at the public meeting, interested persons             Section 1128(b)(7) of the Social
                                              to inform stakeholders of NARMS                          may submit either electronic or written               Security Act
                                              activities and receive comments on                       comments regarding the topic to be
                                              ways to improve. The last two public                     discussed at the meeting. Submit                      AGENCY: Office of Inspector General
                                              NARMS meetings (held in 2010 and                         electronic comments to http://                        (OIG), HHS.
                                              2011) focused on recommendations                         www.regulations.gov. Submit written                   ACTION: Notice and Opportunity for
                                              made by the FDA Science Board                            comments to the Division of Dockets                   Comment.
                                              Advisory Subcommittee in 2007. These                     Management (HFA–305), Food and Drug
                                                                                                       Administration, 5630 Fishers Lane, rm.                SUMMARY:    This Federal Register notice
                                              meetings dealt with enhancing
                                                                                                       1061, Rockville, MD 20852. It is only                 informs the public that OIG: (1) Is
                                              international partnerships, and
                                                                                                       necessary to send one set of comments.                considering revising the Non-Binding
                                              improving NARMS sampling. Since
                                                                                                       Identify comments with the docket                     Criteria for Implementing Permissive
                                              then, NARMS created the 2012–2016
                                                                                                       number found in brackets in the                       Exclusion Authority Under Section
                                              Strategic Plan that addressed all of the
                                                                                                       heading of this document. Received                    1128(b)(7) of the Social Security Act (62
                                              Science Board’s recommendations
                                                                                                       comments may be seen in the Division                  FR 67392, December 24, 1997), and (2)
                                              (http://www.fda.gov/downloads/Animal
                                                                                                       of Dockets Management between 9 a.m.                  is soliciting input from the public for
                                              Veterinary/SafetyHealth/Antimicrobial
                                                                                                       and 4 p.m., Monday through Friday.                    OIG to consider in developing the
                                              Resistance/NationalAntimicrobial
                                                                                                       The docket will remain open for written               revised criteria.
                                              ResistanceMonitoringSystem/UCM2362
                                              83.pdf). A number of strategic planning                  or electronic comments for 30 days                    DATES: To ensure consideration, public
                                              goals already have been achieved and                     following the meeting.                                comments must be delivered to the
                                              several of the objectives outlined in the                   Agenda: The meeting will address                   address provided below by no later than
                                              plan are ongoing. The purpose of this                    monitoring and research for NARMS.                    5 p.m. on September 9, 2014.
tkelley on DSK3SPTVN1PROD with NOTICES




                                              meeting will be to provide updates on                    The final agenda for the public meeting               ADDRESSES: In commenting, please refer
                                              progress of the NARMS 2012–2016                          will be made available on the Agency’s                to file code OIG–1271–N. Because of
                                              strategic plan, discuss possible future                  Web site at http://www.fda.gov/Animal                 staff and resource limitations, we cannot
                                              activities, and receive comments for the                 Veterinary/SafetyHealth/Antimicrobial                 accept comments by facsimile (FAX)
                                              official record. A number of items will                  Resistance/NationalAntimicrobial                      transmission.
                                              be discussed including comparisons of                    ResistanceMonitoringSystem/ucm0591                       You may submit comments in one of
                                              new and old slaughter sampling                           35.htm and will be posted to the docket               three ways (no duplicates, please):


                                         VerDate Mar<15>2010   20:23 Jul 10, 2014   Jkt 232001   PO 00000   Frm 00057   Fmt 4703   Sfmt 4703   E:\FR\FM\11JYN1.SGM   11JYN1
                                                                               Federal Register / Vol. 79, No. 133 / Friday, July 11, 2014 / Notices                                            40115

                                                 1. Electronically. You may submit                     general, OIG may seek to exclude any                  DEPARTMENT OF HEALTH AND
                                              electronic comments on specific                          person who violates the Federal False                 HUMAN SERVICES
                                              recommendations and proposals                            Claims Act, 31 U.S.C. 3729–3733, or the
                                              through the Federal eRulemaking Portal                   Civil Monetary Penalties Law, section                 Office of Inspector General
                                              at http://www.regulations.gov.                           1128A of the Act. For example,
                                                 2. By regular, express, or overnight                  submitting or causing the submission of               Special Fraud Alert: Laboratory
                                              mail. You may send written comments                      false or fraudulent claims or soliciting              Payments to Referring Physicians
                                              to the following address: Patrice Drew,                  or paying kickbacks in violation of the               AGENCY: Office of Inspector General
                                              Office of Inspector General, Department                  Federal Anti-Kickback Statute, section                (OIG), HHS.
                                              of Health and Human Services,                            1128B of the Act, can result in exclusion             ACTION: Notice.
                                              Attention: OIG–1271–N, Room 5296,                        from participation in Medicare,
                                              Cohen Building, 330 Independence                         Medicaid, and all other Federal health                SUMMARY:   This Special Fraud Alert
                                              Avenue SW., Washington, DC 20201.                        care programs. On October 24, 1997,                   addresses compensation paid by
                                              Please allow sufficient time for mailed                  OIG published a proposed policy                       laboratories to referring physicians and
                                              comments to be received before the                       statement in the Federal Register (62 FR              physician group practices (collectively,
                                              close of the comment period.                             55410) in the form of non-binding                     physicians) for blood specimen
                                                 3. By hand or courier. If you prefer,                 criteria to be used by OIG in assessing               collection, processing, and packaging,
                                              you may deliver, by hand or courier,                     whether to impose a permissive                        and for submitting patient data to a
                                              your written comments before the close                   exclusion under section 1128(b)(7) of                 registry or database. OIG has issued a
                                              of the comment period to Patrice Drew,                   the Act. On December 24, 1997, OIG                    number of guidance documents and
                                              Office of Inspector General, Department                  published the final policy statement in               advisory opinions addressing the
                                              of Health and Human Services, Cohen                      the Federal Register (62 FR 67392).                   general subject of remuneration offered
                                              Building, 330 Independence Avenue                           Since 1997, OIG has used these                     and paid by laboratories to referring
                                              SW., Washington, DC 20201. Because                       criteria to evaluate whether to impose a              physicians, including the 1994 Special
                                              access to the interior of the Cohen                      permissive exclusion under section                    Fraud Alert on Arrangements for the
                                              Building is not readily available to                     1128(b)(7) of the Act or release this                 Provision of Clinical Laboratory
                                              persons without Federal Government                       authority in exchange for the                         Services, the OIG Compliance Program
                                              identification, commenters are                           defendant’s entering into an Integrity                Guidance for Clinical Laboratories, and
                                              encouraged to schedule their delivery                    Agreement with OIG. On the basis of                   Advisory Opinion 05–08. In these and
                                              with one of our staff members at (202)                   our experience evaluating permissive                  other documents, we have repeatedly
                                              619–1368.                                                exclusion in False Claims Act and                     emphasized that providing free or
                                                 For information on viewing public                     administrative cases over the past 17                 below-market goods or services to a
                                              comments, please see the                                 years, we are considering revising the                physician who is a source of referrals,
                                              Supplementary Information section.                       existing criteria. We believe revised                 or paying such a physician more than
                                                                                                       criteria may help the provider                        fair market value for his or her services,
                                              FOR FURTHER INFORMATION CONTACT:
                                                                                                       community understand how OIG                          could constitute illegal remuneration
                                              Patrice Drew, Department of Health and
                                                                                                       exercises its discretion in cases under               under the anti-kickback statute. This
                                              Human Services, Office of Inspector
                                                                                                       section 1128(b)(7) of the Act. We also                Special Fraud Alert supplements these
                                              General, Office of External Affairs, at
                                                                                                       believe that updated guidance could                   prior guidance documents and advisory
                                              (202) 619–1368.
                                                                                                       better reflect the state of the health care           opinions and describes two specific
                                              SUPPLEMENTARY INFORMATION:                                                                                     trends OIG has identified involving
                                                                                                       industry today, including the changes in
                                                 Inspection of Public Comments: All                    legal requirements and the emergence of               transfers of value from laboratories to
                                              comments received before the end of the                  the health care compliance industry.                  physicians that we believe present a
                                              comment period are available for                            In considering possible revisions to               substantial risk of fraud and abuse
                                              viewing by the public. All comments                      the criteria, we are soliciting comments,             under the anti-kickback statute.
                                              will be posted on http://www.                            recommendations, and other
                                              regulations.gov as soon as possible after                                                                      I. The Anti-Kickback Statute
                                                                                                       suggestions from concerned parties on
                                              the closing of the comment period.                       how best to revise the criteria to address               One purpose of the anti-kickback
                                              Comments received timely will also be                    relevant issues and to provide useful                 statute is to protect patients from
                                              available for public inspection as they                  guidance to the health care industry.                 inappropriate medical referrals or
                                              are received at Office of Inspector                      The issues we are considering include,                recommendations by health care
                                              General, Department of Health and                        but are not limited to: (1) Whether there             professionals who may be unduly
                                              Human Services, Cohen Building, 330                      should be differences in the criteria for             influenced by financial incentives.
                                              Independence Avenue SW.,                                 individuals and entities and (2) whether              Section 1128B(b) of the Social Security
                                              Washington, DC 20201, Monday                             and how to consider a defendant’s                     Act (the Act) makes it a criminal offense
                                              through Friday of each week from 10                      existing compliance program.                          to knowingly and willfully offer, pay,
                                              a.m. to 4 p.m. To schedule an                               After reviewing any timely submitted               solicit, or receive any remuneration to
                                              appointment to view public comments,                     comments, we will decide whether and                  induce, or in return for, referrals of
                                              phone (202) 619–1368.                                    how to revise the non-binding criteria                items or services reimbursable by a
                                                                                                       for use in evaluating exclusion under                 Federal health care program. When
                                              Background                                                                                                     remuneration is paid purposefully to
                                                                                                       1128(b)(7) of the Act where the
                                                Section 1128(b)(7) of the Social                       defendant has defrauded the Federal                   induce or reward referrals of items or
tkelley on DSK3SPTVN1PROD with NOTICES




                                              Security Act (Act) authorizes the                        health care programs.                                 services payable by a Federal health
                                              Secretary, and by delegation the                                                                               care program, the anti-kickback statute
                                              Inspector General, to exclude an                           Dated: June 7, 2014.                                is violated. By its terms, the statute
                                              individual or entity from participation                  Daniel R. Levinson,                                   ascribes criminal liability to parties on
                                              in the Federal health care programs for                  Inspector General.                                    both sides of an impermissible
                                              engaging in conduct described in                         [FR Doc. 2014–16222 Filed 7–10–14; 8:45 am]           ‘‘kickback’’ transaction. Violation of the
                                              sections 1128A and 1128B of the Act. In                  BILLING CODE 4150–04–P                                statute constitutes a felony punishable


                                         VerDate Mar<15>2010   20:23 Jul 10, 2014   Jkt 232001   PO 00000   Frm 00058   Fmt 4703   Sfmt 4703   E:\FR\FM\11JYN1.SGM   11JYN1
